:
■■

...

r/-■*

■r

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13675-H
JOHNNIE LEE JORDAN, JR.,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.

Y—
Appeal front the United States District Court
for the! Middle District of Florida
ORDER;
Johnnie Lee Jordan, Jr., a Florida prisoner serving life imprisonment for first-degree
murder and aggravated battery, moves this Court for a certificate of appealability (“COA”) and
leave to proceed in forma pauperis ("IFP”) in his appeal of the district court’s denial of his
Fed. R. Civ. P. 59(e) motion to alter or amend the judgment denying his 28 U.S.C. § 2254 habeas
corpus petition. Jordan also has tiled a motion for clarification, asserting that: (1) he has hot
received several orders from the district court, (2) the district court misconstrued his claims, and
o

(3) this Court should review his case fairly.
As background, Jordan’s § 2254 petition raised nine claims. The district court denied the
§ 2254 petition, determining that: (1) the prosecution did not present false testimony, after
'■'S

conducting a de novo review: (2) the witness consistently had identified Jordan as the shooter in

* .
i

!

his sworn written statement and in his trial testimony; (3) another claim was proceduraUy defaulted
because Jordan had failed to raise die federal constitutional nature of that claim in the state courts;
and (4) the remaining claims were meritless, as the state courts’ adjudication of those claims was
not contrary to, or an unreasonable application of, federal law. Jordan then filed the instant Rule
59(e) motion, arguing that: (1) the trial transcript demonstrated that an officer did testify that a
witness essentially signed and circled the photograph identifying Jordan as the shooter, (2) the
prosecutor deceitfully mishandled the relevant photograph so that it did not make it into evidence;
(3) the prosecutor conceded that a hearing was necessary, but a hearing was never held; (4) the
district court did not conduct a de novo review of the perjured-testimony claim; (5) counsel did
know about the witness’s sworn written statement; (6) the district court failed to adjudicate the
remaining claims on the merits; (7) he was innocent of the crimes and did not shoot the victim;
(8) the victim had since been murdered by someone else, and that person likely shot the victim in
the instant offense; and (9) he did not have tattoos and was not a gang member.
A COA is required to appeal the denial ofa Rule 59(e) motion. Perez v. Sec 'y, Fla. Dep't
ofCorrs., 711 F.3d 1263,1264 (11th Cir. 2013). ’The only grounds for granting a Rule 59 motion
are newly-discovered evidence or manifest errors of law or feet. A Rule 59(e) motion cannot be
used to relitigate old matters, raise argument or present evidence that could have been raised prior
to the entry of judgment” Arthur v. King, 500 F.3d 1335, 1343 (11th Cir. 2007) (quotations,
citation, and alterations omitted).
Here, the district court did not err when it denied the Rule 59(e) motion. First, Jordan could
not use his Rule 59(e) motion to raise a new argument about the circled photograph, as he could
have raised that argument prior to the district court denying his § 2254 petition. See id. Second,
a hearing was not necessary for the perjured-testimony claim, as the claim was frivolous because

2

•—'I.*

.

Ow‘

**

A

I,

no one testified that the relevant witness identified Jordan in a photo line-up. See Hernandez v.
United States, 778 F.3d 1230,1232 (11th Cir. 2015) (stating that a district court need not hold an
evidentiary hearing on a frivolous claim). Third,the district court did conduct a de novo review
of the relevant claim, as the court did not give any deference to the state post-conviction court's
ineffective-assistance-of-counsel analysis. Fourth, Jordan could not use a Rule 59(e) motion to
relitigate the issue of the sworn written statement, as the district court already had determined that
the witness consistently had declared that Jordan was the shooter in both his sworn written
statement and his trial testimony. See Arthur, 500 F.3d at 1343. Fifth, the district court correctly
concluded that a claim was procedurally defaulted because Jordan did not raise the federal
constitutional nature of the claim in the state courts, and the court did adjudicate the remaining
claims on the merits. Sixth, Jordan’s arguments that he was actually innocent of the offense foiled
in light of two witnesses' testimonies that they saw Jordan shoot the victim. See McQuiggin v.
Perkins, 569 U.S. 383,386 (2013) (stating that an actual-innocence claim fails unless the petitioner
shows that, in light of new evidence, no reasonable juror would have found him guilty beyond a
reasonable doubt). Finally, Jordan’s allegations regarding the tattoos and his gang membership
were irrelevant, as no such evidence was introduced at trial.
Accordingly, Jordan’s motion for a COA is DENIED. His motion for IFP status is
DENIED AS MOOT. His motion for clarification is GRANTED IN PART to the extent that his
claims were reviewed fairly and DENIED IN PART because the record reflects that he received
the denial orders and that the district court did not misconstrue his claims.

/s/ Kevin C. Newsom
UNITED STATES CIRCUIT JUDGE

3

V.

'’"■Vs#

m THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-13602-H
JOHNNIE LEE JORDAN, JR.,
Petitioner-Appellant,
versus

SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: WILSON and NEWSOM, Circuit Judges.
BY THE COURT:
Johnnie Jordan has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c) and
27-2, of this Court’s January 10, 2020, order denying a certificate of appealability and leave to
proceed on appeal in forma pauperis in his appeal of the district court’s denial of his pro se
28 U.S.C. § 2254 habeas corpus petition. Upon review, Jordan’s motion for reconsideration
DENIED because he f as offered no new evidence or arguments of merit to warrant relief.

i
Case: 19-13603

Date Filed: 12/06/2019

Page: 1 of 2 \t

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13603-H
JOHNNIE LEE JORDAN, JR.,
Petitioner-Appellant,
versus

SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: MARCUS, WILLIAM PRYOR, and TJOFLAT, Circuit Judges.
BY THE COURT:
This appeal is DISMISSED, sua sponte, as duplicative. Johnnie Lee Jordan is appealing
from the district court’s pre-judgment, interlocutory orders from March 21, 2017; June 12, 2017;
September 6, 2017; August 6, 2018; May 8, 2018; and August 7, 2019. However, Jordan already
filed a notice of appeal from the order and judgment denying his 28 U.S.C. § 2254 petition,
^ opening appeal number 19-13602, which is currently pending. This appeal is duplicative of the
appeal in Case No. 19-13602 because Jordan’s notice of appeal in that case is effective to appeal
all non-final orders preceding the entry of judgment in the case, including the pre-judgment,
interlocutory orders from March 21, 2017; June 12, 2017; September 6, 2017; August 6, 2018;
May 8, 2018; and August 7, 2019. Accordingly, the present appeal is due to be dismissed. See

/ '

2
(V

Case: 19-13603

Date Filed: 12/06/2019

Page: 2 of 2

Kong v. Allied Profl Ins. Co., 750 F.3d 1295, 1301 (11th Cir. 2014) (noting that an appeal from
the final judgment brings up for review all preceding non-final orders that produced the
judgment); Barfield-v. Brierton, 883 F.2d 923, 930-31 (11th Cir. 1989) (“[T]he appeal from a
final judgment draws in question all prior non-final orders and rulings which produced the
judgment.”) UnjtedBtates v. Arlt, 567 F.2d 1295, 1297 (5th Cir. 1978) (holding that “[ajppellant
is not entitled to two-appeals” from the same judgment); see also Firestone Tire & Rubber Co. v.
Risjord, 449 U.S. 3&8, 374 (1981) (concluding that a party “must ordinarily raise all claims of
error in a single appeal following final judgment on the merits”). All pending motions are
DENIED as moot.
No motion for reconsideration may be filed unless it complies with the timing and other
requirements of 11th Cir. R. 27-2 and all other applicable rules.

2

Case 8:16-cv-01204-CEH-CPT Document 81 Filed 09/10/19 Page 1 of 2 PagelD 839

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
JOHNNIE LEE JORDAN, JR.,
Petitioner,
Case No. 8:16-cv-1204-T-36CPT

-vsSECRETARY, DEPARTMENT
OF CORRECTIONS,
Respondent.
ORDER

This matter comes before the Court upon consideration of Petitioner’s Motion to Alter or
Amend a Judgment (Doc. 80), filed pursuant to Fed. R. Civ. P. Rule 59(e), in which Petitioner
moves the Court to reconsider its August 26, 2019 Order denying his petition for a writ of habeas
corpus.
“The only grounds for granting [a Rule 59] motion are newly-discovered evidence or
manifest errors of law or fact.” Arthur v. King, 500 F.3d 1335, 1343 (11th Cir. 2007) (quoting In re
Kellogg, 197F.3d 1116,1119 (11th Cir. 1999)). Petitioner has neither presented newly-discovered
evidence nor demonstrated that the Court committed a manifest error of law or fact in denying his
petition. The Court therefore concludes that Petitioner has failed to provide good cause for this
Court to alter or amend the August 26, 2019 Order. See Cover v. Wal-Mart, 148 F.R.D. 294, 295
(M.D. Fla. 1993). Accordingly, Petitioner’s motion (Doc. 80) is DENIED.
CERTIFICATE OF APPEALABILITY AND
LEAVE TO APPEAL IN FORMA PAUPERIS DENIED
The Court declines to issue a certificate of appealability because Petitioner has failed to make

Case 8:16-cv-01204-CEH-CPT Document 81 Filed 09/10/19 Page 2 of 2 PagelD 840

a substantial showing of the denial of a constitutional right as required by 28 U.S.C. § 2253(c)(2).
Nor will the Court authorize the Petitioner to proceed on appeal in forma pauperis because such an
appeal would not be taken in good faith. See 28 U.S.C. § 1915(a)(3).
DONE AND ORDERED in Tampa, Florida, on September 10, 2019.
^"AjM£tLAo >

A(l

Charlene Edwards Honeywell
United States District Judge
Copies to:
Petitioner pro se
Counsel of Record

2

Vf

irwiAjiitpIly,

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 1 of 38 PagelD 790

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
JOHNNIE LEE JORDAN, JR.,
Petitioner,
Case No. 8:16-cv-1204-T-36CPT

-vsSECRETARY, DEPARTMENT
OF CORRECTIONS,
Respondent.
ORDER

Petitioner, a Florida prisoner, initiated this action by filing a petition for a writ of habeas
corpus under 28 U.S.C. § 2254 (“petition”) (Doc. 1). Respondent filed a response in opposition to
the petition (Doc. 15), to which Petitioner replied (Doc. 73). Upon consideration, the petition will
be denied.
I. BACKGROUND
Petitioner was convicted of attempted first-degree murder and aggravated battery involving
great bodily harm (Respondent’s Ex. 1, record pp. 14-15). He was sentenced to life in prison on the
attempted murder conviction and 30 years on the aggravated battery conviction (Id., record pp. 1924). The convictions and sentences were affirmed on appeal (Respondent’s Ex. 4).
Petitioner filed a motion for post-conviction relief under Rule 3.850, Fla. R. Crim. P.,
alleging ineffective assistance of trial counsel, which he subsequently amended (Respondent’s Ex.
6). Claim four of the motion was denied, and an evidentiary hearing was scheduled on the
remaining grounds (Respondent’s Ex. 7). The remaining grounds were denied after the evidentiary
hearing (Respondent’s Ex. 8). The denial of the motion was affirmed on appeal (Respondent’s Ex.

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 2 of 38 PagelD 791

14).
Petitioner filed a motion under Rule 3.800(a), Fla.R.Crim.P., in which he argued that his
sentence was illegal (Respondent’s Ex. 17). The motion was denied (Respondent’s Ex. 18), and the
denial was affirmed on appeal (Respondent’s Ex. 19).
Petitioner filed his federal habeas petition in which he raises eight grounds for relief (Doc.
!)•

II. GOVERNING LEGAL PRINCIPLES
Because Petitioner filed his petition after April 24,1996, this case is governed by 28 U.S.C.
§ 2254, as amended by the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”).
Penry v. Johnson, 532 U.S. 782, 792 (2001); Henderson v. Campbell, 353 F.3d 880, 889-90 (11th
Cir. 2003). The AEDPA “establishes a more deferential standard of review of state habeas
judgments,” Fugate v. Head, 261 F.3d 1206, 1215 (11th Cir. 2001), in order to “prevent federal
habeas ‘retrials’ and to ensure that state-court convictions are given effect to the extent possible
under law.” Bell v. Cone, 535 U.S. 685, 693 (2002); see also Woodford v. Visciotti, 537 U.S. 19,24
(2002) (recognizing that the federal habeas court’s evaluation of state-court rulings is highly
deferential and that state-court decisions must be given the benefit of the doubt).
A. Standard of Review Under the AEDPA
Pursuant to the AEDPA, habeas relief may not be granted with respect to a claim adjudicated
on the merits in state court unless the adjudication of the claim:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.

2

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 3 of 38 PagelD 792

28 U.S.C. § 2254(d). The phrase “clearly established Federal law,” encompasses only the holdings
of the United States Supreme Court “as of the time of the relevant state-court decision.” Williams
v. Taylor, 529 U.S. 362, 412 (2000).
“[S]ection 2254(d)(1) provides two separate bases for reviewing state court decisions; the
‘contrary to’ and ‘unreasonable application’ clauses articulate independent considerations a federal
court must consider.” Maharaj v. Secretary for Dep’t. of Corr., 432 F.3d 1292, 1308 (11th Cir.
2005). The meaning of the clauses was discussed by the Eleventh Circuit Court of Appeals in
Parker v. Head, 244 F.3d 831, 835 (11th Cir. 2001):
Under the “contrary to” clause, a federal court may grant the writ if the state court
arrives at a conclusion opposite to that reached by [the United States Supreme Court]
on a question of law or if the state court decides a case differently than [the United
States Supreme Court] has on a set of materially indistinguishable facts. Under the
‘unreasonable application’ clause, a federal habeas court may grant the writ if the
state court identifies the correct governing legal principle from [the United States
Supreme Court’s] decisions but unreasonably applies that principle to the facts of the
prisoner’s case.
If the federal court concludes that the state court applied federal law incorrectly, habeas relief is
appropriate only if that application was “objectively unreasonable.” Id.
Finally, under § 2254(d)(2), a federal court may grant a writ of habeas corpus if the state
court’s decision “was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” A determination of a factual issue made by a state court,
however, shall be presumed correct, and the habeas petitioner shall have the burden of rebutting the
presumption of correctness by clear and convincing evidence. See Parker, 244 F.3d at 835-36; 28
U.S.C. § 2254(e)(1).
B. Standard for Ineffective Assistance of Counsel
The United States Supreme Court in Strickland v. Washington, 466 U.S. 668 (1984),

3

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 4 of 38 PagelD 793

established a two-part test for determining whether a convicted person is entitled to relief on the
ground that his counsel rendered ineffective assistance: (1) whether counsel’s performance was
deficient and “fell below an objective standard of reasonableness”; and (2) whether the deficient
performance prejudiced the defense.1 Id. at 687-88. A court must adhere to a strong presumption
that counsel’s conduct falls within the wide range of reasonable professional assistance. Id. at
689-90. “Thus, a court deciding an actual ineffectiveness claim must judge the reasonableness of
counsel’s challenged conduct on the facts of the particular case, viewed as of the time of counsel’s
conduct.” Id. at 690; Gates v. Zant, 863 F.2d 1492, 1497 (11th Cir. 1989).
As observed by the Eleventh Circuit Court of Appeals, the test for ineffective assistance of
counsel:
has nothing to do with what the best lawyers would have done. Nor is the test even
what most good lawyers would have done. We ask only whether some reasonable
lawyer at the trial could have acted, in the circumstances, as defense counsel acted
at trial. Courts also should at the start presume effectiveness and should always avoid
second guessing with the benefit of hindsight. Strickland encourages reviewing
courts to allow lawyers broad discretion to represent their clients by pursuing their
own strategy. We are not interested in grading lawyers’ performances; we are
interested in whether the adversarial process at trial, in fact, worked adequately.
White v. Singletary, 972 F.2d 1218,1220-21 (11th Cir. 1992) (citation omitted). Under those rules
and presumptions, “the cases in which habeas petitioners can properly prevail on the ground of
ineffective assistance of counsel are few and far between.” Rogers v. Zant, 13 F.3d 384, 386 (11th
Cir. 1994).
C. Exhaustion of State Remedies and Procedural Default
Before a district court can grant habeas relief to a state prisoner under § 2254, the petitioner
In Lockhart v. Fretwell, 506 U.S. 364,372 (1993), the United States Supreme Court clarified that the prejudice
prong ofthe test does not focus solely on mere outcome determination; rather, to establish prejudice, a criminal defendant
must show that counsel’s deficient representation rendered the result of the trial fundamentally unfair or unreliable.

4

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 5 of 38 PagelD 794

must exhaust all state court remedies that are available for challenging his conviction, either on
direct appeal or in a state post-conviction motion. See § 2254(b)(1)(A); O ’Sullivan v. Boerckel, 526
U.S. 838, 842 (1999) (“[T]he state prisoner must give the state courts an opportunity to act on his
claims before he presents those claims to a federal court in a habeas petition.”). A state prisoner
‘“must give the state courts one full opportunity to resolve any constitutional issues by invoking one
complete round of the State’s established appellate review process,’ including review by the state’s
court of last resort, even if review in that court is discretionary.” Pruitt v. Jones, 348 F.3d 1355,
1358-59 (11th Cir. 2003) (quoting O’Sullivan, 526 U.S. at 845.)
To exhaust a claim, a petitioner must make the state court aware of both the legal and factual
bases for his claim. See Snowden v. Singletary, 135 F.3d 732, 735 (11th Cir. 1998) (“Exhaustion of
state remedies requires that the state prisoner ‘fairly presen[t] federal claims to the state courts in
order to give the State the opportunity to pass on and correct alleged violations of its’ prisoners
federal rights.’”) (quoting Duncan v. Henry, 513 U.S. 364,365 (1995)). A federal habeas petitioner
“shall not be deemed to have exhausted the remedies available in the courts of the State.. .if he has
the right under the law of the State to raise, by any available procedure, the question presented.”
Pruitt, 348 F.3d at 1358. The prohibition against raising an unexhausted claim in federal court
extends to both the broad legal theory of relief and the specific factual contention that supports
relief. Kelleyv. Sec’y, Dep’t of Corr., 377 F.3d 1317, 1344 (11th Cir. 2004).
The requirement of exhausting state remedies as a prerequisite to federal review is satisfied
if the petitioner “fairly presents” his claim in each appropriate state court and alerts that court to the
federal nature of the claim. 28 U.S.C. § 2254(b)(1); Picardv. Connor, 404 U.S. 270,275-76(1971).
A petitioner may raise a federal claim in state court “by citing in conjunction with the claim the

5

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 6 of 38 PagelD 795

federal source of law on which he relies or a case deciding such claim on federal grounds, or simply
by labeling the claim ‘federal.”’ Baldwin v. Reese, 541 U.S. 27, 32 (2004).
The doctrine of procedural default provides that “[i]fthe petitioner has failed to exhaust state
remedies that are no longer available, that failure is a procedural default which will bar federal
habeas relief, unless either the cause and prejudice or the fundamental miscarriage of justice
exception is established.” Smith v. Jones, 256 F.3d 1135,1138 (11th Cir. 2001). To establish cause
for a procedural default, a petitioner “must demonstrate that some objective factor external to the
defense impeded the effort to raise the claim properly in state court.” Wright v. Hopper, 169 F. 3d
695, 703 (11th Cir. 1999). See also Murray v. Carrier, All U.S. 478 (1986). To show prejudice,
a petitioner must demonstrate not only that the errors at his trial created the possibility of prejudice
but that they worked to his actual and substantial disadvantage and infected the entire trial with error
of constitutional dimensions. United States v. Frady, 456 U.S. 152 (1982). The petitioner must
show at least a reasonable probability of a different outcome. Crawford v. Head, 311 F.3d 1288,
1327-28 (11th Cir. 2002).
Alternatively, a petitioner may obtain federal habeas review of a procedurally defaulted
claim if review is necessary to correct a fundamental miscarriage ofjustice. Edwards v. Carpenter,
529 U.S. 446,451 (2000); Carrier, 477 U.S. at 495-96. A fundamental miscarriage of justice occurs
in an extraordinary case where a constitutional violation has probably resulted in the conviction of
someone who is actually innocent. Schlupv. Delo, 513 U.S. 298,327 (1995). “‘[Ajctual innocence’
means factual innocence, not mere legal insufficiency.” Bousleyv. United States, 523 U.S. 614,623
(1998). To meet this standard, a petitioner must show a reasonable likelihood of acquittal absent
the constitutional error. Schlup, 513 U.S. at 327.

6

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 7 of 38 Page ID 796

III. ANALYSIS
Ground One:

PROSECUTOR KNOWINGLY UTILIZED PERJURED TESTIMONY

Petitioner contends that he was denied due process when the prosecutor knowingly presented
false testimony. Specifically, he alleges that the prosecutor knew Officer McCoy’s testimony that
Maria Miller had identified Petitioner from a “photopak lineup” as the person who shot the victim
was false. He appears to further allege that Officer McCoy falsely testified that Miller identified
Petitioner as the shooter when she was brought to see him “in person.”
This claim fails because Officer McCoy did not testify that Miller identified Petitioner as the
shooter (Respondent’s Ex. 8, Vol. Ill, transcript pages 261-69). Although Officer McCoy testified
that Octavia Williams identified Petitioner from the photopak {id., transcript pp. 263-64, 266), she
testified that Miller did not identify Petitioner from the photopak because she could not be “100
percent” certain it was Petitioner, since Petitioner is smaller than he appeared in his photograph in
the photopak {Id., transcript pp. 266-68). And although Officer McCoy testified that she had an
officer bring Petitioner to Miller to show him to her in person, she did not state that Miller identified
Petitioner as the shooter at that time {Id., transcript p. 269).
“In Gigliov. United States, 405 U.S. 150,92 S.Ct. 763,31 L.Ed.2d 104 (1972), the Supreme
Court held that when the prosecution solicits or fails to correct known false evidence, due process
requires a new trial where ‘the false testimony could in any reasonable likelihood have affected the
judgment of the jury.’” Trepalv. Sec’y, Fla. Dep’t of Corr., 684 F.3d 1088, 1107 (11th Cir. 2012)
(quoting Giglio, 405 U.S. at 154). Because Petitioner has failed to demonstrate that Officer McCoy
gave false testimony, his Giglio claim fails. See, e.g, Jones v. Hetzel, 2017 WL 4618157, at *2
(S.D. Ala. Oct. 16,2017), certificate ofappealability denied, 2018 WL 2246586 (11th Cir. Mar. 14,

7

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 8 of 38 PagelD 797

2018) (“Because a Giglio violation requires proof that the prosecution presented false testimony, and
because the Rule 32 judge properly found Booker did not offer false testimony, the petitioner’s only
claim fails as a matter of law.”). Accordingly, Ground One warrants no relief.
Ground Two:

INEFFECTIVE ASSISTANCE OF COUNSEL FAILURE TO
DISCLOSE SWORN WRITTEN STATEMENT PRIOR TO TRIAL
COMMITTING DISCOVERY VIOLATION

Petitioner contends that defense counsel was ineffective in failing to notify the trial court that
the prosecutor failed to disclose “Markese White’s sworn written affidavit statement” during
discovery after counsel had requested it. He further alleges that counsel “misled” him when he
stated that Officer Spatola’s police report was White’s sworn written statement. Petitioner further
contends that he was denied due process during the state post-conviction evidentiary hearing when
the post-conviction court used a police report rather than White’s written statement to deny this
claim.
Petitioner’s ineffective assistance of counsel claim was raised in Ground Seven of his Rule
3.850 motion (Respondent’s Ex. 6, record pp. 200-02). In denying the claim, the state post­
conviction court stated:
In claim seven, Defendant alleges ineffective assistance of counsel for failing
to inform Defendant of a discovery violation. Specifically, Defendant alleges that the
State and counsel led him to believe that Markese White’s initial statement to
police officers was the same as the sworn written statement Mr. White made later in
the day. Defendant alleges that the State failed to provide him a copy of the written
statement and that counsel failed to obtain a copy of the written statement. At the
evidentiary hearing, Defendant identified the statement as the one made to Officer
Spatola on September 3, 2009. (See Transcript, Aug. 13, 2013, p. 56).
Mr. James testified at the evidentiary hearing that the sworn statement was
part of the police report and that the police report was provided to Defendant. {See
Transcript, Aug. 13. 2013, p. 97, 99). Mr. James testified the letter written to
Defendant indicating that he did not provide the sworn statement was done in error.
(See Transcript, Aug. 13, 2013, p. 98; Exhibit 12, attached).
8

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 9 of 38 PagelD 798

The Court finds that the record supports Mr. James’ testimony. The
statement made by Markese White to Officer Spatola was entered into evidence
as Exhibit 10. {See Exhibit, 10, attached). The statement is page 40 of a Tampa
police department report. Paragraph 8 of the State’s Notice of Discovery indicates
the report was provided as part of discovery. {See Notice of Discovery, attached).
Thus, there was no discovery violation and counsel’s performance was not
deficient for failing to inform Defendant of such a violation. Accordingly,
Defendant is not entitled to relief on claim seven.
(Respondent’s Ex. 8, Vol. I, pp. 9-10) (emphasis in original).
Petitioner appears to complain that counsel was deficient in failing to alert the trial court that
the State never provided the defense with the hand written statement White gave to law enforcement
on September 3, 2009 {see Doc. 1-2, docket p. 39). The statement, according to Petitioner, is not
the same statement that White gave to Officer Spatola earlier that night which was documented in
Officer Spatola’s police report {see Respondent’s Ex. 8, record p. 551).
Petitioner has failed to demonstrate that counsel was deficient in failing to notify the trial
court that the State failed to provide White’s written statement because he has not shown that
counsel was aware of the written statement at the time of Petitioner’s trial in February 2010. It is
apparent from defense counsel’s testimony during the evidentiary hearing on Petitioner’s Rule 3.850
motion that counsel believed White’s statement was part of the police report, and the police report
had been provided to Petitioner {Id., record pp. 453-56). Counsel’s February 14, 2011 letter to
Petitioner indicates that White’s written statement “was never provided by the State during the
discovery process.” {Id., record p. 548). Petitioner himself testified that he did not receive White’s
written statement until two years later when he wrote the State Attorney’s Office and received the
statement in response {Id., record p. 415). Defense counsel was not ineffective in failing to notify
the trial court regarding a discovery violation of which he was not aware.
Even if Petitioner could somehow show that counsel was deficient, he has failed to allege,
9

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 10 of 38 PagelD 799

let alone demonstrate, prejudice. White’s written statement provides:
We [were] in the alley of the apartments of Jackson Heights playing dice [when] the
older man that go by the name of baldy came up in at first he look around for like a
minute then he pulled out a gun and shot at Leslie and he chase Leslie and shot
several more times and I ran away. I ran into the apartments, ran to the outside and
I found Leslie in an alley behind a gate.
(Doc. 1 -2, docket p. 39). The statement was not favorable to Petitioner, since it identified Petitioner,
who was known as “Baldy,” as the person who shot the victim. And it was consistent with the
recorded statement White gave to Officer Torres in which White indicated, in pertinent part, that he
was playing dice with others behind the apartments when Petitioner approached the group, pulled
a gun out and pointed it at them, and fired shots at and chased after the victim (Respondent’s Ex.
6, record p. 139).
Suppression of evidence by the prosecution denies a defendant due process only if the
evidence is favorable to the defense and material, i.e., there is a reasonable probability that if the
evidence was disclosed, the result of the trial would have been different. See Stephens v. Hall, 407
F.3d 1195, 1203 (11th Cir.2005) (discussing Brady v. Maryland, 373 U.S. 83 (1963) and United
States v. Bagley, 473 U.S. 667, 678 (1985), other citations omitted). White’s written statement was
neither favorable to the defense nor material. Accordingly, Petitioner cannot demonstrate that he
was prejudiced by counsel’s failure to notify the trial court that the State failed to disclose White’s
written statement.
The state courts’ denial of this claim was not contrary to Strickland, and was not based on
an unreasonable determination of the facts. Accordingly, Petitioner is not entitled to federal habeas
relief on Ground Two.
Finally, to the extent Petitioner contends that he was denied due process during the

10

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 11 of 38 PagelD 800

evidentiary hearing on his Rule 3.850 post-conviction motion, the claim is not cognizable under §
2254 because a defect in a collateral proceeding, rather than the conviction or sentence, is unrelated
to the cause of detention and does not state a claim for habeas corpus relief. See Quince v. Crosby,
360 F.3d 1259, 1261-62 (11th Cir.2004) (“while habeas relief is available to address defects in a
criminal defendant’s conviction and sentence, an alleged defect in a collateral proceeding does not
state a basis for habeas relief.”); Spradley v. Dugger, 825 F.2d 1566, 1568 (11th Cir.1987)
(petitioner’s § 2254 claim that the state trial court violated his due process rights because it failed
to conduct an evidentiary hearing and did not attach to its opinion denying relief those portions of
the record on which it relied went to issues unrelated to the cause of petitioner’s detention and did
not state a basis for habeas relief). Accordingly, this claim warrants no relief.
Ground Three:

WHETHER THE STATE FAILED TO PRESENT SUFFICIENT
EVIDENCE IDENTIFYING THE APPELLANT AS THE
PERPETRATOR

Petitioner contends that his federal due process and equal protection rights were violated
because there was insufficient evidence identifying him as the perpetrator of the crimes for which
he was convicted. Respondent argues that this claim is unexhausted because Petitioner did not raise
it as a federal claim on direct appeal. Respondent is correct that Petitioner presented this claim as
one of state law in his Initial Brief on direct appeal (Respondent’s Ex. 2, pp. x-xiii).
However, it may be possible to exhaust a federal sufficiency of the evidence claim by
presenting an analogous state claim in state court when the state and federal courts apply the same
standard of review. Mulnix v. Sec’y for Dep’t of Corr., 254 Fed. App’x 763 (11th Cir. 2007). The
sufficiency of the evidence standard applied by federal courts, and applied by the state court in
Petitioner’s appeal, asks whether, after viewing the evidence in the light most favorable to the

11

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 12 of 38 PagelD 801

prosecution, a rational trier of fact could have found guilt beyond a reasonable doubt. Jackson v.
Virginia, 443 U.S. 307, 319 (1979); Simmons v. State, 934 So.2d 1100, 1111 (Fla. 2006).
Accordingly, this Court assumes that Petitioner exhausted his federal claim challenging the
sufficiency of the evidence with regard to identification.
Nevertheless, Respondent further contends thatthis claim is procedurally barred from review
in this habeas action because Petitioner procedurally defaulted the claim in state court. Respondent
argues that the issue of identity was procedurally defaulted in Petitioner’s direct appeal because he
failed to preserve the issue for appellate review, since he did not raise the issue during his motion
for judgment of acquittal at trial. The Court agrees.
In Florida, in a failure of proof case, “the defendant must articulate the legal grounds in a
motion for judgment of acquittal for an appellate court to review the issue.” Hornsby v. State, 680
So. 2d 598, 598 (Fla. 2d DCA1996). At trial, defense counsel did not argue that there was
insufficient evidence establishing the identity of the shooter (Respondent’s Ex. 8, Vol. Ill, record
pp. 680-84). Rather, defense counsel solely argued that there was insufficient evidence of
premeditation (Id.). Accordingly, the issue of identity was not preserved for appeal and therefore
was procedurally defaulted on appeal.
When the issue was raised on appeal, the State argued that the claim was procedurally barred
(Respondent’s Ex. 3, p. 7). The state appellate court’s silent per curiam affirmance on direct appeal
operates as an acceptance of the procedural bar. Where a claim is rejected without opinion, and the
existence of a procedural bar is clear, federal courts on habeas review will not assume that the state
appellate court would have reached the merits of the claim rather than rejecting it as being
procedurally barred. Creed v. Department of Corrections, 330 Fed. App’x. 771, 772 (11th

12

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 13 of 38 PagelD 802

Cir.2009). Petitioner does not show cause and prejudice to overcome his procedural default, and
does not meet the miscarriage of justice exception. Accordingly, because the claim is procedurally
barred, Ground Three is due to be dismissed.
Even ifthe claim were not procedurally barred, it would warrant no relief. In claiming that
the State presented insufficient evidence identifying him as the perpetrator, Petitioner alleges that:
1) he testified that he did not have a gun; 2) he testified that he is not “Baldy,” the name the
witnesses to the shooting used to identify the perpetrator; 3) the victim did not identify Petitioner
as the person who shot him; 4) the State’s expert witness never testified that Petitioner shot the
victim; 5) no gun was ever recovered by the police; 6) no finger prints were found on the bullet or
shell casings that were recovered; 7) the gun-shot residue report stated that no residue was found
on any samples taken from Petitioner; 8) the testimony of the two witnesses who allegedly saw the
shooting, Markese White and Maria Miller, was inconsistent because White testified that the shooter
was wearing a black shirt, bald, wearing nothing on his head, and was approximately 5'8" - 5'9" and
185 pounds, and Miller testified that the shooter was wearing a white shirt and a skull cap, identified
the shooter as “Baldy” and “Baldhead,” and was approximately 5'10"-5T 1" and 200 pounds; and 9)
crime scene photographs show that Petitioner was wearing a white tank top when he was taken into
custody. But Petitioner does not address all the State’s evidence.
There was ample evidence that Petitioner was the shooter. For example, White testified that
while he, the victim, and others were at the apartment complex shooting dice, he saw Petitioner
approach the group (Respondent’s Ex. 8, Vol. II, transcript pp. 136-39). White looked at Petitioner
for approximately five to seven seconds before he looked down at his cell phone {Id., transcript pp.
138-49). He then heard the sound of a gun cocking, saw Petitioner shoot the victim, and as he

13

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 14 of 38 PagelD 803

started to run away, he saw Petitioner shooting at the victim several more times while chasing him
(Id.). White previously had seen Petitioner in the neighborhood approximately two or three times
(Id., transcript pp. 142). On the day of the shooting, White was shown some photographs from
which he identified Petitioner as the shooter (Id., transcript pp. 151-52).
Miller was also an eyewitness to the shooting. She testified that after she heard a gun shot,
she saw a man wearing a white shirt and blue jeans chasing after and shooting at the victim (Id.,
transcript pp. 158-60). She testified that the shooter was “Baldy,” she had previously seen “Baldy”
around the neighborhood approximately 2 to 3 times each week, she identified Petitioner as “Baldy,”
and she was “ 100 percent positive” that Petitioner was the man she saw chasing and shooting at the
victim (Id., transcript pp. 161-68).
Petitioner has failed to show that the State did not meet its burden of proof. The State
presented ample evidence that Petitioner was the shooter. See, e.g., Brown v. State, 13 So. 2d 3
(Fla. 1943) (in murder prosecution, testimony of only eyewitness to effect that crime was committed
by defendants was sufficient to sustain conviction). Accordingly, Petitioner has failed to establish
that, considering the evidence in the light most favorable to the prosecution, no rational trier of fact
could have found that the State proved Petitioner was the shooter beyond a reasonable doubt. See
Jackson, 443 U.S. at 319.
Because Petitioner’s claim is procedurally barred, and he has not shown that the state
appellate court’s decision was contrary to, or involved an unreasonable application of, clearly
established federal law, or was based on an unreasonable factual determination, he is not entitled
to relief on Ground Three.
Ground Four:

WHETHER THE STATE’S EVIDENCE OF PREMEDITATION WAS
INSUFFICIENT TO SUPPORT APPELLANT’S CONVICTION FOR
14

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 15 of 38 PagelD 804

ATTEMPTED FIRST DEGREE MURDER
Petitioner contends that he was denied due process and a fair trial because the State presented
insufficient evidence to support his conviction for attempted first-degree murder. Specifically, he
argues that there was no evidence establishing the element of premeditation.
Respondent argues that this claim is unexhausted and now procedurally barred because
Petitioner failed to raise the federal constitutional dimension of this claim either at trial or on direct
appeal. The Court agrees.
Petitioner did not fairly present a federal constitutional violation to the state courts with
regard to this claim. A petitioner must present each claim to a state court before raising the claim
in federal court. “A state prisoner seeking federal habeas relief cannot raise a federal constitutional
claim in federal court unless he first properly raised the issue in state courts.” Henderson, 353 F. 3d
at 891 (citation omitted). “The AEDPA requires a state prisoner to exhaust all available state court
remedies, either on direct appeal or in a state post-conviction proceeding.” Pearson v. Secretary,
Dept, of Corrections, 273 Fed. App’x. 847, 849.(11th Cir. 2008). As Pearson notes, federal claims
must be presented in a manner that alerts the state court that “the ruling under review violated a
federal constitutional right.” Id. at 849-50. “A state prisoner does not ‘fairly present’ a claim to a
state court if that court must read beyond.. .a brief’ to find the federal claim. Baldwin v. Reese, 541
U.S.27, 32 (2004).
Petitioner’s Initial Brief on direct appeal did not fairly present a federal constitutional claim
(Respondent’s Ex. 2, Initial Brief, pp. xiv-xv). The brief cited solely to state cases, none of which
were decided on federal grounds (Id.). The state cases relied on Florida’s heightened burden of
proof in cases involving circumstantial evidence. Petitioner did not indicate in any way that he

15

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 16 of 38 PagelD 805

intended to raise a federal claim. He therefore failed to exhaust a federal claim because nothing in
his arguments alerted the state courts to the presence of a federal claim. See Pearson, 273 Fed.
App’x. at 850.2 See also, Preston v. Sec ’y, Fla. Dep’tofCorr., 785 F.3d449, 451 (11th Cir. 2015)
(finding petitioner was procedurally barred in federal court from raising 14th Amendment due
process claim based on state’s failure to present sufficient evidence of premeditation where in state
court he “brought only a state sufficiency of the evidence claim, and relied on Florida’s heightened
burden of proof in cases involving circumstantial evidence[,]” and therefore “did not fairly present
his federal claim to the Florida courts[.]”). Consequently, Petitioner is procedurally barred from
raising Ground Four in his federal habeas petition.3 Accordingly, Ground Four warrants no relief.4

Ground Five:

TRIAL COURT LACKED SUBJECT MATTER JURISDICTION TO
TRY OR CONVICT DEFENDANT FOR CRIMES HE SHOULD NOT
HAVE BEEN PROSECUTED FOR UNDER FLORIDA RULES OF
CRIMINAL PROCEDURE5

2It would be futile to dismiss this case to give Petitioner the opportunity to exhaust his federal claim because
it could have and should have been raised on direct appeal. See Parker v. Dugger, 876 F.2d 1470 (11th Cir. 1989) (where
dismissal to allow exhaustion of unexhausted claims would be futile due to state procedural bar, claims are considered
procedurally barred in federal court). Florida’s state procedural rules precluding a second direct appeal, and the time
limitations for bringing an appeal, bar Petitioner’s returning to state court to present the claim. See Fla. R. App. P.
9.110(b).
3

Petitioner has not alleged or shown either cause excusing the default or actual prejudice resulting from the bar.
Further, he has not alleged or shown that he is entitled to the fundamental miscarriage ofjustice exception.
4Even if the claim were not procedurally barred, it would fail on the merits for the reasons argued by
Respondent (see Doc. 15, pp. 19-20). There was sufficient evidence proving premeditation, including the evidence that
showed Petitioner used a gun and fired multiple times while he chased the victim. See, e.g, Morales v. State, 170 So.
3d 63 (Fla. 1st DCA 2015) (State presented sufficient evidence that defendant acted with premeditation in shooting victim
where victim testified that, after he exchanged words with occupants of vehicle, the vehicle drove on a “bit” and then
stopped, defendant exited the vehicle and began shooting, and eye witness testified that shooter fired gun multiple times
and that, before car sped off, the shooter got back in the car and fired another shot).
Petitioner titled this claim as though it was a lack of jurisdiction claim, but the substance of the claim is
ineffective assistance of trial counsel.

16

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 17 of 38 PagelD 806

Petitioner contends that trial counsel was ineffective in failing to dismiss the Information as
“fundamentally defective and fraudulent.” He appears to allege that trial counsel knew the
Information was “fundamentally defective and fraudulent” because he knew that the prosecutor lied
when swearing under oath that “he received sworn testimony from a material witness to charge the
petitioner.” (Doc. 1, docket p. 13).
This claim was raised in state court in Ground One of Petitioner’s May 17,2012 Rule 3.850
motion (Respondent’s Ex. 6, record pp. 206-12). In denying this claim after the evidentiary hearing,
the state post-conviction court stated:
In his May 17, 2012 motion, Defendant alleges ineffective assistance of
counsel for failing to move to dismiss the charging document based on a lack of
subject matter jurisdiction where counsel knew the State Attorney “lied under
oath” in the information and where counsel knew the charges alleged in the
information did not “coincide” with the “sworn affidavits collected from witnesses.”
At the evidentiary hearing, several exhibits were entered into evidence
refuting this claim. In particular, Exhibit 5A, the Criminal Report Affidavit,
indicates that Defendant was identified by photopak. (See Exhibit 5A, attached).
Exhibit 5, the statement from Octavia Williams, identifies Defendant as the person
leaving the scene and making an incriminatory statement. {See Exhibit 5, attached).
Exhibit 10 in part, the statement made by Markese White, indicates “Johnny” was
the shooter. Mr. James testified that he did not think he had a legal basis to move
dismiss the information. {See Transcript, Aug. 13, 2013, pp. 99-101). Upon the
review of the exhibits introduced at the evidentiary hearing, the Court finds that
counsel did not have a legal basis upon which to move to dismiss the information.
Accordingly, Defendant is not entitled to relief on his “Motion to Vacate, Set
Aside, or Correct Sentence Pursuant to Fla. R. Crim. P. Rule 3.850(a),” filed
May 17, 2012.
(Respondent’s Ex. 8, Vol. I, record p. 353) (emphasis in original).
Rule 3.140(g), Fla.R.Crim.P., provides, in pertinent part, that:
An information charging the commission of a felony shall be signed by the state
attorney, or a designated assistant state attorney, under oath stating his or her good
faith in instituting the prosecution and certifying that he or she has received
testimony under oath from the material witness or witnesses for the offense.
17

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 18 of 38 PagelD 807

The Information in Petitioner’s case was signed by an assistant state attorney under oath, and
indicated that “the prosecution is being instituted in good faith” and the allegations in the
Information “are based upon facts that have been sworn to as true by the material witness or
witnesses. . .

(Respondent’s Ex. 1, record p. 27). Accordingly, the Information complied with

the mandates of Rule 3.140(g).
Petitioner alleges that defense counsel knew that the assistant state attorney lied when he
swore that the allegations in the Information were based on facts sworn to as true by the witnesses.
Petitioner, however, does not support this allegation with any evidence. And the state post­
conviction court correctly found that the allegations of the Information were supported by sworn
testimony from witnesses.
Octavia Williams gave a sworn statement indicating that after she heard gun shots, she saw
Petitioner and heard him say “we got that fuck n****.” (Respondent’s Ex. 8, record p. 563).
Markese White’s statement indicates that after he saw Petitioner approach the victim and others who
were “throwing dice,” he turned away, heard a “glock cocking,” and the group of people ran away
in different directions {Id., record p. 551). The victim’s statement indicated that he was with others
who were “playing cards and dicing,” he started to run when he saw everyone else running, he heard
4 or 5 gun shots, and while running he realized that he had been shot and collapsed in a back yard
{Id.).
Because the allegations of the Information were supported by sworn statements from
witnesses to the crimes, the state post-conviction court’s implicit determination that counsel did not
render deficient performance in failing to move to dismiss the Information (since there was no “legal
basis upon which to move to dismiss the information”) is not contrary to Strickland. See Williams

18

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 19 of 38 PagelD 808

v. Sec’y, Fla. Dep’t ofCorr., 2016 WL 10749631, at *4 (11th Cir. July 27, 2016) (unpublished)
(“Counsel’s performance is not deficient because counsel failed to make a nonmeritorious motion.”)
(citation omitted). Accordingly, Ground Five does not warrant federal habeas relief.
Ground Six:

FAILURE TO IMPEACH ALLEGED EYE WITNESSES WITH
SIGNIFICANT CONTRADICTORY STATEMENTS GIVEN ON THE
NIGHT OF THE ATTEMPTED MURDER, AND USE DEPOSITION
TESTIMONY TO EXPOSE THOSE CONTRADICTORY
STATEMENTS

Petitioner contends that defense counsel was ineffective in failing to impeach crucial state
witnesses with evidence that would have shown that the witnesses’ testimony lacked credibility and
validity, and was fabricated. Specifically, Petitioner alleges that counsel failed to impeach: 1) White
with his written sworn statement; and 2) Williams and Miller with their “prior contradictory
statements and deposition[s].”
This claim was raised in state court in Ground One of Petitioner’s amended Rule 3.850
motion (Respondent’s Ex. 6, record pp. 159-77). After the evidentiary hearing, the state post­
conviction court denied the claim as follows:
In claim one, Defendant alleges ineffective assistance of counsel for failing
to depose alleged eyewitnesses in order to reveal contradictory statements and for
failing to impeach alleged eyewitnesses with their significant contradictory
statements. In particular, Defendant alleges Markese White gave contradictory
statements on the night of the crime and counsel failed to depose him or impeach him
at trial. At the evidentiary hearing, Defendant testified that there [sic] inconsistencies
between whether Mr. White saw a gun or just heard a gunshot. {See Transcript, Aug.
13, 2013, pp. 9-13). Next, Defendant alleges that Octavia Williams gave
contradictory statements on the night of the crime and during depositions and
counsel failed to impeach her. At the evidentiary hearing, Defendant testified the
contradictions from Ms. Williams were whether she saw Defendant by himself or
with another person, whether she heard him say “shot” or “got,” and whether Ms.
Williams knew Defendant. {See Transcript, Aug. 3, 2013, p. 20, 22-23, 25).
Finally, Defendant alleges that Maria Miller gave contradictory statements on the
night of the crime and during depositions and counsel failed to impeach her. At the
evidentiary hearing, Defendant testified that Ms. Miller gave conflicting statements
19

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 20 of 38 PagelD 809

about knowing Defendant. Furthermore, Ms. Miller could not identify Defendant
in a photopak even though she testified she knew him and he used to sell her
drugs. (See Transcript, Aug. 13, 2013, pp. 31-33, 35, attached).
As to Markese White, Defendant’s former trial counsel, Ronnie James,
testified at the evidentiary hearing that in cross- examining Mr. White, he was trying
to bring out “the fact that there had been a prior statement where he said that he
heard the sound of a gun initially, but never saw the person who had the gun.” (See
Transcript, Aug. 13, 2013, p. 77), Mr. James testified that he generally tried to
establish that Mr. White identified Defendant because he knew him and not because
Defendant committed the crime. (See Transcript, Aug. 13, 2013, p. 77). Mr. James
also testified that he had attempted to depose Mr. White on several occasions, and
that Mr. White ultimately showed up for the trial. (See Transcript, Aug. 13, 2013,
p. 78).
As to questioning Octavia Williams, Mr. James testified that his strategy
was to show misidentification and show her identification of Defendant as the
shooter was based on past knowledge of Defendant and not on the incident itself.
(See Transcript, Aug. 13, 2013, p. 79). Mr. James stated that when Defendant
testified at trial, he admitted he was present at the scene. Therefore, some of Ms.
Williams’ testimony was not inconsistent with Defendant’s testimony. (See
Transcript, Aug. 13, 2013, p. 79). As to Maria Miller, Mr. James testified that he
tried to bring out on cross-examination the fact that she could not make a definitive
identification.
The Court finds that the alleged inconsistencies asserted by Defendant are
minor in nature. The Court further finds Mr. James’ testimony to be credible and
finds that his testimony at the evidentiary hearing is consistent with the record. In
particular, the trial transcript reveals that Mr. James did question Mr. White about
his contradictory statements. (See Trial Transcript, pp. 145-153, attached). Thus,
as to Mr. White, the Court does not find counsel’s performance deficient.
As to Ms. Williams, the trial transcript shows Mr. James argued that all she
really testified to was seeing Defendant walking past her—which was consistent
with Defendant’s own trial testimony. (See Trial Transcript, pp. 333-334, 386-387,
attached). As to the alleged inconsistent statements, the record shows that Mr. James
questioned Ms. Williams about what she heard, and Ms. Williams said she heard
Defendant say, “we just got. . .’’as opposed to “shot.” (See Trial Transcript, p.
196, attached). The Court finds that Defendant has not demonstrated deficient
performance or prejudice for counsel failing to inquire further into whether Ms.
Miller had at some point asserted that Defendant said “I just shot one of [the
victims],” (See Transcript, Aug. 13, 2013, p. 25). The Court notes that as to either
version of what Ms. Miller [sic] heard, both include an inculpatory statement made
by Defendant.
20

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 21 of 38 PagelD 810

As to Ms. Miller, Mr. James established at trial that she knew several persons
in the neighborhood who shaved their heads, and further established that Ms. Miller
was unable to identify Defendant as the shooter in a photo lineup. (See Trial
Transcript, pp. 165-166, attached). The jury was aware that while Ms. Miller
recognized the shooter as “Baldy” and identified Baldy as Defendant in court, she
was unable to pick Defendant’s photograph out of a lineup. (See Trial Transcript,
pp. 161-168, attached). Based on Ms. Miller’s trial testimony, Mr. James was able
to argue at trial that Ms. Miller was unable to identify Defendant’s photo in the
lineup even though she claims to have known him. (See Trial Transcript, p. 385,
attached). Thus, counsel made the argument that Defendant is alleging counsel
should have made via impeaching Ms. Miller with deposition testimony. In light
of the testimony and arguments made at trial, the Court finds that Defendant failed
to establish deficient performance or prejudice as to Ms. Miller. Based on the
reasons above, Defendant is not entitled to relief on claim one.
(Respondent’s Ex. 8, Vol. I, pp. 2-4) (emphasis in original). A review of the record supports the
state court’s conclusions.
A. Markese White
Petitioner asserts that counsel was ineffective in failing to impeach White with his prior
“sworn written affidavit statement.” However, as stated in Ground Two above, there is no indication
from the record that counsel was even aware of White’s written statement at the time of Petitioner’s
trial, and Petitioner indicates that the State did not provide that statement until sometime after the
trial. Accordingly, counsel cannot be deficient in failing to impeach White with a statement he did
not have.
Even if counsel had that statement, Petitioner has failed to show that counsel was deficient
in failing to cross-examine White with it because the statement is consistent with White’s trial
testimony. In the statement White indicated that he, the victim, and others were playing dice in the
alley of the apartment complex when “Baldy” approached them. “Baldy” pulled out a gun and shot
at the victim, then chased and continued to shoot at the victim as the victim was running away.
White ran away and subsequently found the victim (Doc. 1-2, docket p. 39). During trial White
21

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 22 of 38 PagelD 811

testified that he was playing dice with the victim and others at the apartments when Petitioner
approached them. White looked down at his cell phone, heard the sound of a gun cocking, then
heard a gunshot and saw Petitioner shoot at the victim. He saw the victim running away and
Petitioner chasing and shooting at him, then he ran away in the opposite direction (Respondent’s Ex.
8, Vol. II, transcript pp. 136-56).
Because White’s written statement and trial testimony are consistent, counsel was not
deficient in failing to impeach White with the statement. Moreover, counsel impeached White with
his prior statement to Officer Spatola to attempt to show that White had stated that he never saw the
gun or who was shooting, but instead only heard a gun cocking and firing, and then he ran in the
opposite direction from the victim {Id., transcript pp. 147-53). Accordingly, the state court’s
decision that defense counsel was not deficient in his cross-examination of White was not
objectively unreasonable.
B. Octavia Williams
In his petition Petitioner alleges that counsel was ineffective “when he failed to impeach
Octavia Williams[] with her prior contradictory statements, and deposition.” (Doc. 1, docket p. 15).
He argues that had counsel impeached Williams with her prior statements and deposition testimony,
the jury would have concluded that Williams’ testimony that after the shooting she saw Petitioner
with another man wearing a black shirt and heard Petitioner say “we just got that fucking n *****”
was a “fabrication.” {Id.).
As alleged in the petition, this claim is vague and conclusory because Petitioner has failed
to state how Williams’ prior statements and deposition testimony are inconsistent with her trial
testimony. Petitioner’s vague and conclusory allegations are insufficient to show that he received

22

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 23 of 38 PagelD 812

ineffective assistance of counsel. See Tejada v. Dugger, 941 F. 2d 1551, 1559 (11th Cir. 1991)
(vague, conclusory, or unsupported allegations cannot support an ineffective assistance of counsel
claim).
Even viewing this claim in light of the record as a whole, the claim is without merit. During
trial Williams testified, in pertinent part, that while at the apartment complex she heard six shots
(Respondent’s Ex. 8, Vol. II, transcript p. 191). As she was walking toward where the shots came
from, she “walked into [Petitioner] and another guy.” (Id). She heard Petitioner say “we just got
that fucking n *****.’’ (Id., transcript pp. 192-93,196). On cross-examination, when asked whether
she “could. . .have mistaken they just shot or we just got?”, she answered “no.” (Id., transcript p.
196).
During her deposition Williams testified that she heard Petitioner say “Yeah, we just got that
fuck n*****.” (Respondent’s Ex. 6, record p. 145). Her written statement to law enforcement
indicated that Petitioner said “we got that fuck n ****.” (Id., record p. 134). And the officers’
reports indicate that Williams said either “I got that fuck n****,” “we got that fuck n****,” or “he
just shot one of those n ****.” (Id., record pp. 133, 36). Therefore, Williams’ prior statements and
deposition testimony are consistent with her trial testimony.

At worst, there were minor

inconsistencies in the exact words Petitioner uttered. And as the state post-conviction court stated,
each version of the statement was inculpatory. Accordingly, the state court’s decision that defense
counsel was not deficient in his cross-examination of Williams on this issue was not objectively
unreasonable. See, e.g, Wilson v. Sec ’y, Dep’t of Corr., 2013 WL 1499549, at *7 (M.D. Fla. Apr.
12, 2013) (“Petitioner has not demonstrated that counsel was deficient for failing to impeach Hall
on minor inconsistencies that did not completely contradict her trial testimony and could easily be

23

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 24 of 38 PagelD 813

attributed to the lapse of time or differences in the manner she was questioned and recounted the
events.”).
C. Maria Miller
Petitioner alleges that defense counsel was ineffective in “failing to impeach Maria Miller
with her prior, contradictory statements and deposition.” (Doc. 1, docket p. 16). He contends that
had counsel so impeached Miller, the jury would have determined that Miller’s “trial testimony, in
court identification, and testimony about knowing the accused from the past, and seeing him shoot
Jones” were fabricated (Id.).
This claim is vague and conclusory because Petitioner has failed to indicate how Miller’s
prior statements and deposition testimony are inconsistent with her trial testimony. Petitioner’s
vague and conclusory allegations are insufficient to show that he received ineffective assistance of
counsel. See Tejada, 941 F. 2d at 1559.
Even viewing this claim in light of the record as a whole, the claim is without merit. During
direct examination at trial, Miller testified that while at the apartment complex she heard a gunshot
then saw “two kids running.” (Respondent’s Ex. 8, Vol. II, transcript p. 158). Then she saw a man
with no shirt on running behind the two kids, and the man was running from another man who was
shooting at him (Id., transcript p. 159). She was approximately 30 to 40 feet from the man who was
shooting (Id.). The shooter was wearing blue jeans, a white shirt, and a black skull cap (Id.). She
heard 7 shots (Id., transcript pp. 159-60). She identified the shooter as “Baldy” (Id., transcript p.
161).
On cross-examination Miller testified that she told the officers that the shooter was
approximately 5T0"-5'11" and 200 pounds (Id., transcript p. 164). She was able to identify “Baldy”

24

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 25 of 38 PagelD 814

as the shooter because she had “seen him around. . .in the neighborhood and stuff. . . .” (Id.,
transcript p. 165). She previously identified the shooter as “Bald head,” and confirmed that other
people in the neighborhood had shaved heads (Id.). She testified that after the shooting she was
shown a photo pak lineup, and she was unable to identify the shooter from those photographs (Id.,
transcript pp. 165-66).
On re-direct examination Miller identified Petitioner as the shooter (Id., transcript pp. 16667). She explained that when she was shown the photo pak, she thought that she saw “Baldy’s”
photograph, but she told the detective that “Baldy’s” appearance had changed, and that she was not
comfortable saying that the shooter was the man in that photograph (Id., transcript pp. 167-68).
However, she was positive that the shooter was the man she identified in the courtroom, i.e.,
Petitioner (Id., transcript p. 168).
On September 3, 2009, Miller gave a sworn statement to Officer McCoy (Respondent’s Ex.
6, record p. 133). According to the report, Miller stated that as she was walking home she saw a
man being chased by “Bald head.” (Id.). She saw “Bald head” shooting at the other man and heard
six shots (Id.). She stated that she knew “Bald head” for a long time because she used to buy crack
cocaine from him (Id.). She said that “Bald head’s” first name is Johnnie, and indicated where he
lived (Id.).
Miller gave a second sworn statement that day to Officer Lippold (Id., record p. 137).
According to that report, Miller stated that while walking in the apartments she heard a gunshot then
saw one black male running while being chased by another black male holding a handgun (Id.). The
man shot at the other approximately seven times (Id.). She saw the shooter and it looked like
“Baldy,” who is a drug dealer in the area, and whom she had known for years (Id.).

25

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 26 of 38 PagelD 815

Miller also provided a written statement that day in which she recounted what she had seen
{Id., record p. 138). In that statement, she identified the shooter as “Baldie.” {Id.).
On November 29, 2009, Miller testified during a deposition {Id., record pp. 149-51). She
stated, in pertinent part, that she knew Petitioner “from being around in the apartment, not
personally, though.” {Id., record p. 149). She would see him around the apartment complex
approximately 2 or 3 times each week, and sometimes he would “hang[] out” with her son-in-law
“over on 29th Street” {Id., transcript pp. 149-50). She would refer to Petitioner as “Bald head,
Baldy, several names.” {Id., transcript p. 150).
Miller’s prior statements and deposition testimony are consistent with her trial testimony.
At worst, there were minor inconsistencies. To the extent Petitioner contends that defense counsel
should have impeached Miller’s trial testimony that she knew Petitioner because she had “seen him
around.. .in the neighborhood and stuff....” with her prior statement that she knew him because
he used to sell her crack cocaine, counsel was not deficient in failing to impeach Miller with that
statement. That statement would have been harmful to Petitioner because it would have brought his
history of dealing drugs to the jury’s attention.
There are alternative methods to impeaching a witness other than using prior inconsistent
statements. Defense counsel effectively impeached Miller by asking her about her prior felony
convictions and inability to identify Petitioner from the photo pak despite allegedly knowing him,
getting her to admit that “a lot of guys” in the neighborhood had shaved heads, eliciting testimony
that she gave an inaccurate physical description of the shooter to officers, and calling into question
her ability to observe the events by getting her to admit that she was “some distance away” from the
shooting, and her primary concern at the time “was protecting [her] nephew.” (Respondent’s Ex.

26

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 27 of 38 PagelD 816

8, Vol. II, transcript pp. 161-66).
The state post-conviction court’s decision that defense counsel was not deficient in his crossexamination of Miller, Williams, and White was not objectively unreasonable. Accordingly, Ground
Six does not warrant federal habeas relief.
Ground Seven:

INEFFECTIVE ASSISTANCE OF COUNSEL FAILURE TO
DEVELOP A SINGLE COHERENT THEORY OF DEFENSE AND
GAVE HARMING CLOSING ARGUMENT COMMENTS

Ground Seven presents two sub-claims: 1) counsel was ineffective during closing argument
in conceding that Petitioner was guilty of trying to rob the victim; and 2) counsel was ineffective
in failing “to develop his misidentification defense. . .when he agreed with the state not to allow
evidence of Leslie Jones[’] gang affiliation be heard in front of the jury.” Petitioner contends that
there was no evidence that he was a gang member, and counsel knew that Officer Pecora stated that
Jones was affiliated with a gang, and that she was concerned that the shooting might have been the
result of a rivalry between Jones’ gang and another gang. Petitioner argues that had counsel
presented evidence that Jones was shot because he was a gang member, it would have supported his
defense of misidentification.
These claims were presented in state court in Ground Three of Petitioner’s amended Rule
3.850 motion (Respondent’s Ex. 6, record pp. 185-88). In denying the claims after the evidentiary
hearing, the state post-conviction court stated:
In claim three, Defendant alleges ineffective assistance of counsel where
counsel “had a do nothing strategy, and did little, or no pretrial investigation.”
Defendant alleges counsel failed to depose Markese White and failed to contest
the State’s motion in limine. Defendant further alleges that, during closing
arguments, counsel failed to explore identification discrepancies brought out
during trial and counsel implied Defendant was guilty of trying to rob the victim.
As to the motion in limine, Defendant testified at the evidentiary hearing that trial
counsel agreed with the State not to introduce evidence about the victim’s gang

27

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 28 of 38 PagelD 817

affiliation. (See Transcript, Aug. 13, 2013, pp. 43-44).
.. .As to the motion in limine, Mr. James testified that it was trial strategy
not to introduce evidence about the victim’s gang affiliation because evidence could
have then come out that Defendant was a gang “assassin.” (See Transcript, Aug.
13, 2013, p. 92). The Court finds Mr. James testimony credible and finds that
Defendant has not satisfied his burden of showing deficient performance as to this
portion of his claim three. As to the motion in limine, the Court also finds that [sic]
that Defendant has not demonstrated prejudice as Defendant benefitted from keeping
this information from the jury.
As to the portion of the claim regarding trial counsel’s closing arguments,
Mr. James testified that he presented a misidentification defense and that he did not
admit Defendant’s guilt as to any other crime. (See Transcript, Aug. 13. 2013, pp.
92-93). Mr. James testified that in arguing the State had overcharged the attempted
murder crime, he never conceded Defendant’s guilt to a robbery and his alternative
argument was not inconsistent with the misidentification defense. (See
Transcript, Aug. 13, 2013, p. 93). Upon further review of the record, the Court
finds that the trial transcript supports Mr. James’ testimony. (See Trial
Transcript, pp. 376- 390, attached). The transcript reveals that before arguing the
crime was overcharged, Mr. James explicitly stated that Defendant did not commit
the crime. (See Trial Transcript, p. 377, attached). After arguing the crime was
overcharged, Mr. James presented, in detail, the defense’s misidentification
arguments. (See Trial Transcript, pp. 381-387, attached). The Court finds Mr.
James’ testimony credible and supported by the record, and further finds that
Defendant has not demonstrated deficient performance as to this portion of claim.
Accordingly, Defendant is not entitled to relief on claim three.
(Respondent’s Ex. 8, Vol. I, record pp. 348-49) (emphasis in original).

A. Counsel did not concede that Petitioner was guilty of robbery
Petitioner’s contention that during closing argument counsel conceded that Petitioner was
guilty of robbery is belied by the record. Petitioner appears to support his contention with counsel’s
statement “[i]t is a robbery not an attempted murder.” (Respondent’s Ex. 8, Vol. IV, record p. 743).
Counsel, however, did not state that it was Petitioner who attempted to rob the victim. Rather,
viewing the entirety of counsel’s closing argument, counsel was arguing that whoever the person

28

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 29 of 38 PagelD 818

was that was chasing the victim, that person was not attempting to murder the victim but instead was
trying to rob him {Id., record pp. 742-44). Counsel stated “[t]his was an attempt according to the
evidence to rob Mr. Jones” not an attempted murder {Id., record p. 744), and reminded the jury that
“Mr. Jordan did not do this however” {Id., record p. 742), and “this was not Mr. Jordan.” {Id.,
record p. 744).
Counsel never conceded or implied that Petitioner was guilty of robbery. Accordingly, the
state post-conviction court’s determination that Petitioner failed to demonstrate deficient
performance and prejudice with regard to this claim was neither contrary to Strickland nor based on
an unreasonable determination of the facts.
B. Counsel did not render deficient performance in deciding to not oppose the State’s
motion in limine to exclude evidence of the victim’s gang affiliation
During trial defense counsel did not oppose the State’s motion in limine requesting the court
exclude any evidence of the victim’s gang affiliation (Respondent’s Ex. 8, Vol. II, transcript pp. 9899). Counsel testified during the evidentiary hearing on Petitioner’s Rule 3.850 motion that his
decision to not oppose the motion in limine was strategic; he was concerned that if evidence of the
victim’s gang affiliation was presented, it would “open the door” to evidence that showed Petitioner
was an “assassin” for a gang, and argument that his motive in shooting the victim was “to fulfill
some kind of contract maybe.” (Respondent’s Ex. 8, Vol. I, record p. 449). The state post­
conviction court found counsel’s testimony credible {see id., record p. 348) despite Petitioner’s
testimony that he was “not affiliated with a gang,” and counsel knew that he was “not a gang
member.” {Id., record p. 401).
In denying this ineffective assistance of counsel claim, it is apparent that the state

29

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 30 of 38 PagelD 819

post-conviction court accepted trial counsel’s testimony that there was evidence that Petitioner was
an “assassin” for a gang over Petitioner’s testimony that he was not a gang member. This court must
defer to the state court’s finding of fact, see 28 U.S.C. § 2254(e)(1), because ‘“[determining the
credibility of witnesses is the province and function of the state courts, not a federal court engaging
in habeas review.’” Nejadv. Attorney Gen., State ofGeorgia, 830 F.3d 1280,1292 (11th Cir. 2016)
(quoting Consalvo v. Sec’yfor Dep’t of Corr., 664 F.3d 842, 845 (11th Cir. 2011)). This deference
applies to a credibility determination that resolves conflicting testimony. Baldwin v. Johnson, 152
F.3d 1304, 1316 (11th Cir. 1998) (“We must accept the state court’s credibility determination and
thus credit [the attorney’s] testimony over” the petitioner’s.); cert, denied, 526 U.S. 1047 (1999).
And the state court’s credibility determination is presumed correct. See Devier v. Zant, 3 F.3d 1445,
1456 (11th Cir. 1993) (“Findings by the state court concerning historical facts and assessments of
witness credibility are... .entitled to the same presumption accorded findings of fact under 28 U.S.C.
§ 2254(d).”), cert, denied, 513 U.S. 1161 (1995).
Petitioner presents no basis for rejecting the state court’s credibility determination and fails
to overcome the presumption of correctness by clear and convincing evidence. 28 U.S.C. §
2254(e)(1). “Clear and convincing evidence is a ‘demanding but not insatiable’ standard, requiring
proof that a claim is highly probable.” Bishop v. Warden, GDCP, 726 F.3d 1243, 1258 (11th Cir.
2013) (quoting Ward v. Hall, 592 F.3d 1144, 1177 (11th Cir.2010)). “[H]ighly probable” is a
standard that requires “more than a preponderance of the evidence but less than proof beyond a
reasonable doubt.” Ward, 592 F.3d at 1177 (quotation marks omitted).
Petitioner has failed to meet this burden. His self-serving testimony, unsupported by any
other evidence, is not clear and convincing evidence that he was not a gang member. See, e.g.,

30

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 31 of 38 PagelD 820

Baker v. Phillips, 2009 WL 1457179, at *3 (S.D.N.Y. May 26,2009) (denying habeas relief because
self-serving affidavit did not present clear and convincing evidence to override state court’s factual
finding).
Giving deference to the state post-conviction court’s factual finding, defense counsel’s
strategy to not oppose the motion in limine was reasonable in light of evidence of Petitioner’s
affiliation with a gang. Evidence that Petitioner and the victim were in rival gangs, and Petitioner
was an “assassin” for his gang, would have provided the motive for Petitioner to shoot the victim.
In light of these circumstances, counsel’s strategic decision is virtually unassailable. See Strickland,
466 U.S. at 690 (“Strategic choices made after a thorough investigation are virtually unassailable.”).
In sum, Petitioner has not established that no reasonable attorney would have chosen to not
oppose the State’s motion in limine. See Chandler v. United States, 218 F.3d 1305, 1315 (11th
Cir.2000) (en banc) (“And because counsel’s conduct is presumed reasonable, for a petitioner to
show that the conduct was unreasonable, a petitioner must establish that no competent counsel
would have taken the action that his counsel did take.”).
The state courts’ adjudication of this claim was not contrary to Strickland, nor was it based
on an unreasonable determination of the facts presented in the state court proceeding. Accordingly,
Ground Seven is denied pursuant to 28 U.S.C. § 2254(d).
Ground Eight:

INEFFECTIVE ASSISTANCE OF COUNSEL FOR FAILURE TO
OBJECT TO PROSECUTORIAL MISCONDUCT

Petitioner contends that counsel was ineffective in failing to object to prosecutorial
misconduct. First, he alleges that during closing argument the prosecutor improperly misled the jury
to believe that forensic evidence tied Petitioner to the gun and bullets that were used to shoot the
victim. Second, he alleges that the prosecutor misled the jury to believe that Miller was unable to
31

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 32 of 38 PagelD 821

identify Petitioner as the shooter from the photo pak because he appears smaller in person than he
appeared in the photograph. Petitioner appears to challenge the following comments by the
prosecutor during closing argument:
Now with regard to her photopack lineup identification. As you see the
State respectfully submits to you, you have eyes in your head when you actually look
at Mr. Jordan in court and you have had an opportunity to look at him and he
testified from the witness stand he does appear smaller in person than you see from
those
photograph [sic].
He looks to have a bigger head in the photographs and in the crime scene
photographs he looks like he’s got a big, bulky build but it does not reflect his actual
size when you take a look at him and that is relevant with regard to Maria Miller’s
identification of him. She knew him from the past. When seeing him in person has
identified him as the person who shot Leslie Jones that is a little bit different than
looking at the photographs in this case and the State respectfully submits to you and
you heard the testimony of the detective on this issue that she was looking right
at that photograph and she said it looks bigger and that is why she didn’t sign it.
That is correct, it does look bigger.
***

The bullets in this case show that they were fired from one gun, the gun that
was in his hands and that he had two to three hours to ditch and get rid of before he
was actually apprehended by the police.
The Tampa police department [sic] did a good job in this case. Relatively
speaking they got the defendant in custody but there was a gap in time in between
when they got him and when he committed the crime approximately two to three
hours and you heard testimony with regard to the gunshot residue report in this case.
No GSR in his hands however; it’s right in the report as to the reasons why. If he
wipes his hands or touches an object at any time in those two hours by his testimony
he claims he did so and in fact he was seen by the officers at the time of his arrest
holding a cell phone that’s enough to wipe the gunshot residue off his hands.
What was he also seen doing at the time of arrest? Sweating profusely, again
something that is going to get gunshot residue off your hands. Not only that there
are certain types of ammunition and again it’s hard to tell based on just the casings
themselves but there are certain types of ammunition that don’t show gunshot residue
at all so that is right in the report.

32

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 33 of 38 PagelD 822

(Respondent’s Ex. 8, Vol. IV, record pp. 759-60, 766-67).
These claims were raised in state court in Ground Five of Petitioner’s amended Rule 3.850
motion (Respondent’s Ex. 6, record pp. 191-95). In denying Ground Five following the evidentiary
hearing, the state post-conviction court stated:
In claim five, Defendant alleges ineffective assistance of counsel for failing
[sic] object to the State’s improper comments during closing arguments. Specifically,
Defendant alleges that the State took on the role of gunshot analyst and asserted its
opinion as to why Defendant did not have gunshot residue on his hands. Defendant
alleges that a gunshot expert did not testify at his trial and there was nothing
associating Defendant with gunshot residue.
At the evidentiary hearing, Mr. James testified both parties agreed to
introduce an FDLE report as to gunshot residue because it contained information
relevant to both sides. (See Transcript, Aug 13, 2013, pp. 81-82). The FDLE report
was introduced into evidence at the evidentiary hearing as Defense Exhibit 9. (See
Transcript, Aug. 13,2013, p.79,84-85; FDLE Report, attached). Mr. James testified
that the report was favorable to the defense to the extent that the report revealed
Defendant did not have gunshot residue on his hands. (See Transcript, Aug. 13,2013,
p. 82). Mr. James testified that he did not think the comments made by the State
during closing were inappropriate and he was focused on arguing the lack of
gunshot residue. (See Transcript, Aug. 13, 2013, pp. 95-96).
Upon further review of the record, the Court finds that the FDLE report
indicates that gunshot residue was not found on Defendant’s hand. (See FDLE
Report, attached). It further indicates that an absence of gunshot residue may occur
if “GSR deposited on the hands was removed prior to sampling.” (See FDLE
Report, attached). At trial, the State tendered witness Wesley Zackery as an expert
in latent print identifications. (See Trial Transcript, pp. 289-290,314, attached). Mr.
Zackery testified, in part, that a person perspiring too much or too little could have
an effect on latentprints. (See Trial Transcript, pp. 290-291, attached). In its closing
arguments, the State argued that the gunshot residue could have been wiped off or
could have been affected by Defendant sweating profusely. (See Trial Transcript,
pp. 402- 403, attached).
The Court finds the State’s argument that sweating profusely is “something
that is going to get gunshot residue off your hands” is not based on evidence
presented at trial. Mr. Zackery’s testimony about sweating profusely had to do
with leaving latentprints rather than the absence of gunshot residue. Additionally,
while the FDLE report indicates that the absence of gunshot residence [sic] may
be a result of removing it prior to sampling, it does not explicitly say that excessive
33

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 34 of 38 PagelD 823

sweating will remove it. Nevertheless, in light of the overwhelming evidence
identifying Defendant as the shooter, the Court does not find that Defendant
has met his burden in demonstrating prejudice.
First, Markese White identified Defendant as the shooter. (See Trial
Transcript, pp. 136-139,153-156, attached). Maria Miller testified at trial that while
she could not pick Defendant’s photo out of the photopak, she recognized the
shooter and identified Defendant in court as the shooter. (See Trial Transcript,
pp. 164-168, attached). Additionally, Octavia Williams testified that she saw
Defendant walking near the crime scene saying “we just got that [person].” (See
Trial Transcript, pp. 191-192, attached). Ms. Williams identified Defendant in
court as the person she saw at the crime scene. (See Trial Transcript, pp. 192-193,
attached). Thus, two people identified Defendant as the shooter and a third person
put Defendant near the crime scene making an incriminatory statement.
Additionally, the FDLE report indicates that “[e]xcessive debris on the sample
stub(s) precluded examination of the complete defined sample area.” (See FDLE
report, attached). Given the witnesses’ testimony, in conjunction with the portions
of FDLE report indicating the gunshot residue could have been removed prior to
testing and excessive debris interfered with a complete examination, the Court finds
that Defendant has not demonstrated prejudice that undermines the confidence of the
trial outcome. See Rimmer v. State, 59 So. 3d 763, 777-778 (Fla. 2010).
Accordingly, Defendant is not entitled to relief on claim five.
(Respondent’s Ex. 8, Yol. I, record pp. 349-51) (emphasis in original).
A. Counsel was not deficient in failing to object to the prosecutor’s comments regarding
Miller’s failure to identify Petitioner in the photo pak
Officer McCoy testified that Miller was unable to unequivocally identify Petitioner in the
photo pak because “[s]he said [Petitioner] is smaller than the person in the photopack. She couldn’t
be 100 percent sure exactly what she said because he is smaller.” (Respondent’s Ex. 8, Vol. Ill,
record p. 632). On cross-examination Miller testified that she was unable to identify the shooter
from a “photo lineup.” (Respondent’s Ex. 8, Vol. II, record transcript pp. 165-66). On re-direct
examination she testified that when she looked at the photo pak she thought she saw Petitioner, but
she was not “comfortable making an identification from that photograph” because “his appearance
had changed.” (Id., record pp. 167-68). Accordingly, the prosecutor’s comments that Miller did not
34

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 35 of 38 PagelD 824

identify Petitioner from the photo pak because Petitioner appeared bigger in the photograph than
when she had seen him in person was not improper. Rather, it was fair comment on the evidence.
See Griffin v. State, 866 So.2d 1,16 (Fla.2003) (“Merely arguing a conclusion that can be drawn
from the evidence is permissible fair comment.”). Defense counsel therefore was not deficient in
failing to object to these comments.
B. Petitioner has failed to show that he was prejudiced by counsel not objecting to the
prosecutor’s comments regarding the lack of gun residue
During closing the prosecutor argued, in pertinent part, that the gun residue test on
Petitioner’s samples may have been negative because Petitioner could have wiped his hands clean
or held other objects during the two to three hours between when he shot the victim and when he
was arrested, the ammunition used does not show gun residue, or the residue came off Petitioner
because he was sweating profusely (Respondent’s Ex. 8, Vol. IV, record p. 767). The statements
that the gun residue test may have been negative because the residue may have been removed from
Petitioner’s hands, or the ammunition did not have the elements necessary to identify gun residue,
were based on the report of the gun residue test, which stated in pertinent part:
The absence of GSR results when:
1. The individual sampled was not exposed to a source of gunshot residue.
2. GSR deposited on the hands was removed prior to sampling.
3. The ammunition used did not contain the elements necessary for the
identification of GSR.
(Respondent’s Ex. 8, Vol. I, record p. 527). Accordingly, these statements were fair comment on
the evidence.
The report, however, did not indicate that the absence of residue may result from profuse
sweating (Id.). And although the State’s expert witness, Wesley Zackery, testified that if a person’s
35

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 36 of 38 PagelD 825

hand is “perspiring too much” it may not leave a fingerprint on an object, he did not testify that
“profuse sweating” may remove gun residue from a person’s hand (Respondent’s Ex. 8, Vol. Ill
record pp. 655-56). Accordingly, the prosecutor’s comment that “[sjweating profusely.. .is going
to get gunshot residue off your hands” was not based on facts admitted as evidence.
Even if counsel’s performance could be considered deficient in failing to object to this single
comment that was not supported by the evidence, Petitioner has failed to demonstrate that the state
court’s determination that he failed to show prejudice was contrary to Strickland, or based on any
unreasonable findings of facts. As the state post-conviction court found, even if the prosecutor’s
comment was objectionable, there was evidence, other than profuse sweating, that explained why
the gun residue test may have been negative, including the possibility that the residue was wiped off
Petitioner’s hand, the ammunition did not contain the elements necessary to identify gun residue,
and excessive debris on the samples interfered with a complete examination. Moreover, there was
substantial eyewitness testimony identifying Petitioner as the shooter. White and Miller testified
that they knew Petitioner from seeing him multiple times at the apartment complex, and they saw
him holding a gun and shooting while chasing the victim. Another witness, Williams, testified that
she too knew Petitioner from the apartment complex, and after she heard the shooting, she saw
Petitioner and heard him state that “we just got that fuck n *****.’’ Finally, the state trial court
remedied any potential harm from the prosecutor’s comment by instructing the jury that the
attorneys’ arguments “do not constitute what the facts of this case are...” (Respondent’s Ex. 8, Vol.
IV, record p. 734), and that “[i]t is to this evidence introduced in this trial and to it alone that you
are to look for that proof.” (Id., record p. 781) (emphasis added). See United States v. Lopez, 590
F.3d 1238, 1256 (11th Cir.2009) (“Because statements and arguments of counsel are not evidence,

36

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 37 of 38 PagelD 826

improper statements can be rectified by the district court’s instruction to the jury that only the
evidence in the case be considered.” (quotation omitted)). Based on the strong evidence against
Petitioner and the trial court’s instructions, this Court cannot find that there is a reasonable
probability of a different outcome at trial had counsel objected to the prosecutor’s comments.
The Court therefore finds that the state courts’ denial of this claim was neither contrary to
Strickland nor based on an unreasonable determination ofthe facts. Accordingly, Ground Eight does
not warrant relief.
Any of Petitioner’s claims nof addressed in this Order have been determined to be without
merit.
Accordingly, it is ORDERED that:
1. The Petition for Writ of Habeas Corpus (Doc. 1) is DENIED, and this case is
DISMISSED WITH PREJUDICE.
2. The Clerk of the Court is directed to enter judgment accordingly and close this case.
3. This Court should grant an application for a Certificate of Appealability only if the
Petitioner makes “a substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). Petitioner cannot make this showing.6 Accordingly, a Certificate of Appealability is
DENIED in this case. And because Petitioner is not entitled to a Certificate of Appealability, he
is not entitled to proceed on appeal in forma pauperis.
DONE AND ORDERED in Tampa, Florida on August 26 2019.

“Pursuant to Rule 11 of the Rules Governing Section 2254 Cases In the United States District Courts,
this Court must issue or deny a certificate of appealability when it enters a final order adverse to the
applicant.

37

Case 8:16-cv-01204-CEH-CPT Document 78 Filed 08/26/19 Page 38 of 38 PagelD 827

"if
Charlene Edwards Honeywell
United States District Judge
Copies to:
Petitioner pro se
Counsel of Record

38

t

Additional material
from this filing is
available in the
Clerk's Office.

